<html>
<title> - JARRETT AND SPROAT NOMINATIONS</title>
<body><pre>[Senate Hearing 109-346]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-346
 
                     JARRETT AND SPROAT NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

    CONSIDER THE NOMINATION OF JEFFREY D. JARRETT, TO BE ASSISTANT 
SECRETARY FOR FOSSIL ENERGY, DEPARTMENT OF ENERGY, AND EDWARD F. SPROAT 
 III, TO BE DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE MANAGEMENT, 
                          DEPARTMENT OF ENERGY

                               __________

                           NOVEMBER 10, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-838                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Jarrett, Jeffrey D. Jarrett, Nominee to be Assistant Secretary 
  for Fossil Energy, Department of Energy........................     3
Sproat, Edward F., III, Nominee to be Director, Office of 
  Civilian Radioactive Waste Management, Department of Energy....     6

                                APPENDIX

Responses to additional questions................................    15


                     JARRETT AND SPROAT NOMINATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 10, 2005

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:37 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order.
    We're here this morning to consider the following 
nominations for positions with the Department of Energy: 
Jeffrey Jarrett, to be Assistant Secretary for Fossil Energy, 
and Edward Sproat III, to be the Director of the Office of 
Civilian Radioactive Waste Management.
    I welcome both of you to the committee. If either of you 
have members of your family present, if you'd like to introduce 
them now, you could begin.
    Mr. Jarrett, do you have anybody here?
    Mr. Jarrett. Yes, I do. I'd like to introduce my wife, 
Janet Goodwin, and my son, Tyler Jarrett. My oldest daughter, 
Sarah, was not able to be here, but now would probably be a 
good time for me to thank both of them, as well as my daughter, 
for all of the support and encouragement and love that they've 
shown me not only recently, with this nomination, but ever 
since.
    The Chairman. Thank you. And thank them.
    Mr. Sproat?
    Mr. Sproat. I'd like to introduce my family, Senator. My 
wife, Heidi Sproat, who likes to refer to herself as a native 
Californian transplanted by marriage to the East Coast. She's 
been my best friend and companion through 26 years of marriage 
and really has done a superb job in holding our family together 
while I spent my time in South Africa over the past several 
years. Our three children here today: our oldest, Kristen, 
who's a third-class midshipman at the U.S. Naval Academy; Eric, 
who is a junior at Conestoga High School; and Keith, who is a 
freshman at Malvern Prep School. Obviously, Heidi and I are 
very proud of all three of them.
    The Chairman. Terrific. Terrific. Thanks to all of you.
    Midshipman, I have a grandson in your class, Peter Goretz. 
No? Okay. You might write that down.
    [Laughter.]
    The Chairman. If you want my version, he's a terrific-
looking guy.
    [Laughter.]
    The Chairman. I'll tell him you are, too.
    [Laughter.]
    The Chairman. Okay. I'd also note that Clay Sell is here, 
Senator Bingaman. Clay, thank you for coming. And I think it's 
nice for us to know that you have enough support in these 
candidates that you would take time out of your schedule. I 
think it's good for them to know that, too.
    Now, the committee rules apply to all nominees, and that 
requires that you be sworn in. Would you both rise and raise 
your right hands, please?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Mr. Jarrett. I do.
    Mr. Sproat. I do.
    The Chairman. Please be seated.
    Before you begin your statements, I would ask three 
questions, which we ask of every nominee.
    One, would you be available to appear before this committee 
and other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Mr. Jarrett. I will.
    Mr. Sproat. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict, or 
create the appearance of such a conflict, should you be 
confirmed and assume the office that you've been nominated to 
by the President?
    Mr. Jarrett. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof, to my 
knowledge.
    Mr. Sproat. I, also, Senator, my investments, personal 
holdings, and other interests have been reviewed by both myself 
and the appropriate ethics counselors within the Federal 
Government, and I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest, or 
appearances thereof, to my knowledge.
    The Chairman. Are you involved with, or do you have, any 
assets that you hold in blind trust?
    Mr. Jarrett. I do not.
    Mr. Sproat. I do not.
    The Chairman. Now, each of you could make a brief 
statement. I encourage you to summarize your statements that 
you have prepared and they will be filed and made a part of the 
record.
    We will start with Mr. Jarrett, and then we'll proceed with 
you, Mr. Sproat. And, after that, we'll have questions by the 
Senators, if any.
    Please proceed.

        TESTIMONY OF JEFFREY D. JARRETT, NOMINEE TO BE 
  ASSISTANT SECRETARY FOR FOSSIL ENERGY, DEPARTMENT OF ENERGY

    Mr. Jarrett. Mr. Chairman, Senator Bingaman, and members of 
the committee, it's a great honor to appear before you today as 
the President's nominee for the position of Assistant Secretary 
for Fossil Energy for the Department of Energy.
    As you know, I was before this committee in December 2001, 
when my nomination to my current position as Director of the 
Office of Surface Mining was pending, and it's a pleasure to be 
back before you.
    President Bush has paid me the highest compliment by 
nominating me for this position, and I very much appreciate 
Secretary Bodman recommending me to the President.
    I've enjoyed a 30-year career of involvement with energy 
and related environmental issues as a coal-industry executive 
and as a State and Federal public-policy decisionmaker. Four 
years ago, I began my service as the Director of the Office of 
Surface Mining. These have been some of the most exciting, 
challenging, and rewarding years of my career. During the past 
few years, OSM has achieved the highest level of stability it 
has ever enjoyed, and it has achieved respect with States, 
industry, and a large segment of the environmental community. I 
have learned what it takes to work within the administration, 
the Office of Management and Budget, and Congress to advance 
important public-policy issues.
    I have been very fortunate to have these opportunities 
which became excellent learning experiences. I learned, 
firsthand, the need for our government to be effective and 
responsive to the legitimate needs of citizens and the business 
community. I learned, firsthand, the need of--for our 
Government to make wise policy decisions to meet changing world 
conditions. I learned that decisions by government agencies 
must be not--must not be made in a vacuum without real-world 
considerations. I learned the value of early involvement of all 
the stakeholders in the decisionmaking process. And I have 
learned that our country needs, and expects, public servants 
who will work with integrity and in the public interest.
    During the past few weeks, I have been able to meet with 
several members of this committee and staff and hear some of 
your concerns and issues. I've also learned much about the 
activities of the Fossil Energy Program within Department of 
Energy. From what I've seen so far, it is clear that there is 
critically important work being done in the Department by 
extremely talented engineers, scientists, and other staff. The 
research, development, demonstration, and deployment activities 
being carried out are critically important to the Nation's 
energy future. And they are not, nor should they be, pursued in 
a vacuum. Technology cannot be deployed unless crosscutting 
issues are also understood and addressed.
    But, of course, DOE is not just research. It is charged 
with the responsibility of assuring coordinated and effective 
administration of Federal policy and programs. Critical to 
advancing energy policy that is reasonable, achievable, and 
durable are the budget choices we make today regarding 
research, development, and demonstration, because those 
decisions will significantly affect our energy choices of the 
future. Budget choices are always difficult, because Federal 
dollars are a finite resource, and there is certainly not 
unanimous agreement among all the stakeholders about how those 
dollars should be spent. But decisions must be made, and it's 
the responsibility of the Federal Government to make them.
    If I am confirmed, you have my promise that I will work 
within the administration, with this committee, and with the 
appropriations committees so that we can, together, make the 
wisest spending choices.
    Mr. Chairman and members of the committee, I sat before you 
4 years ago and made a promise that, if confirmed as the 
Director of the Office of Surface Mining, I would work in a 
bipartisan way with both houses of Congress and with all 
stakeholders. For 4 years, I have worked hard to live up to 
that commitment, and have been rewarded with tremendous 
cooperation and great partnerships that have allowed OSM to be 
successful. Today, I repeat that promise, if I am confirmed as 
the Assistant Secretary of Fossil Energy.
    Thank you for the opportunity to make that statement.
    [The prepared statement of Mr. Jarrett follows:]

   Prepared Statement of Jeffrey D. Jarrett, Nominee to be Assistant 
           Secretary for Fossil Energy, Department of Energy

    Mr. Chairman, Senator Bingaman, and members of the Committee, it is 
a great honor to appear before you today as the President's nominee for 
the position of Assistant Secretary for Fossil Energy, for the 
Department of Energy. As you know I was before this Committee in 
December of 2001 when my nomination to my current position as the 
Director of the Office of Surface Mining was pending, and it is a 
pleasure to be back before you. President Bush has paid me the highest 
compliment by nominating me for this position and I very much 
appreciate Secretary Bodman recommending me to the President.
    I also want to thank my family. My parents, Leslie and Agatha, were 
a formidable team and two of the hardest working, most honest people I 
have ever known. They never procrastinated, and they never shirked 
responsibility. They set an incredible example for me. Both of my 
parents served during World War II: my father as a marine in the South 
Pacific, and my mother as a naval officer. I have always tried to make 
them as proud of me as I am of them. My children, Sarah, age 19, and 
Tyler, age 11, are the pride of my life. Sarah has become an incredible 
young adult, and Tyler is the responsible ``man of the house'' when I 
am away on business. They are both extremely helpful members of the 
family, and that is a tremendous help to me. My hope for the kind of 
world I want them to live in motivates me as a public servant. My wife, 
Janet Goodwin, is my most trusted friend and adviser. I can always 
count on her to be pointedly honest when necessary, but most of all, I 
can always count on her. I want to thank all of them for the support, 
encouragement and love they have always shown to me.
    My career began over thirty years ago in the coal industry. While a 
very young man, in my 20's, I was made an environmental manager, and 
during my 13 year tenure in industry, became a general manager and then 
an executive. I was involved in almost every aspect of the coal mining 
business, learning about what it takes to manage a large organization, 
make payroll, comply with complicated and sometimes even conflicting 
government regulations, plan for the future by securing coal reserves 
and contracts, and still make a profit. Throughout these early years of 
my career I was substantially involved in state and national industry 
associations to keep abreast of emerging issues and to provide 
corporate perspective and input into public policy decisions. During 
this time I learned how critically important it is for industry to be 
able to rely on public policies that are clear, reasonable, and durable 
in making strategic business decisions.
    It was my in-depth understanding of the industry and the specific 
interface of business and government that I brought to my next career 
as a public servant. For seven years I was the Deputy Assistant 
Director of Program Operations with the Office of Surface Mining, U.S. 
Dept. of the Interior. In that capacity I was primarily responsible for 
working with and conducting oversight of the eastern states in 
implementing the mandates of the Surface Mining Control and Reclamation 
Act. In that position I tried to minimize the ambiguities in government 
regulation that I knew were plaguing both industry and state regulatory 
agencies.
    For the next six years I was a senior public policy decision maker 
for the Pennsylvania Department of Environmental Protection, first as 
the Director of District Mining Operations, then as Deputy Secretary 
for Mineral Resources Management. By this time in my career I was ready 
for the leadership role in the mineral extraction programs in a state 
with a large industry. It was also my first significant exposure to 
other industries in addition to the coal industry, including the oil 
and gas industry, the insurance industry and the explosives industry. 
It was a great opportunity to make a real difference, and I think I 
did. For example, during my tenure I was able to implement a new 
surface coal mine bonding program that provides the highest level of 
assurance that adequate funds will be available to complete reclamation 
plans on future forfeited sites, and established the first 
comprehensive program in the nation to provide the financial resources 
for the perpetual treatment of acid mine drainage on sites where 
operators default on their obligations to treat water. A significant 
point is that the program was implemented with the complete support of 
all stakeholders including industry and the state legislature. That 
support was the direct result of our willingness to involve the 
stakeholders in the development of the program, and to address their 
legitimate concerns.
    In 2002 I left the state leadership role and, after being 
considered by this Committee and confirmed by the U.S. Senate, I began 
my service as the Director of the Office of Surface Mining (OSM), 
Department of the Interior. These have been some of the most exciting, 
challenging and rewarding years of my career. During the past few years 
OSM, a relatively young agency, has achieved the highest level of 
stability it has ever enjoyed, and has achieved respect with states, 
industry, and a large segment of the environmental community. I have 
learned what it takes to work within the Administration, the Office of 
Management and Budget and Congress to advance important public policy 
issues.
    Mr. Chairman and members of the Committee, I bring a unique 
perspective earned and learned over a career of involvement with energy 
and environmental issues because of my years as a coal industry 
executive and as a state and Federal public policy decision maker. But 
I also bring a more important perspective gained from the length of 
time I have been involved in energy and environmental issues: three 
decades. As much as I have always tried to bring certainty to the 
programs I managed, things do change. The nature of environmental 
concerns and the energy industry have changed, the technology has 
changed, the science we all rely upon has gotten better, and most 
important the concerns of the citizens we have a duty to protect have 
changed, and will continue to change. In a world of new information and 
shifting viewpoints, the person who is fortunate enough to lead the 
Department of Energy's Fossil Energy program must be a good listener--
someone who listens to the concerns and viewpoints of all stakeholders. 
I am a good listener, and I understand the challenge of finding common 
ground and common interests upon which to build solutions to the 
daunting problems we face together regarding this nation's energy 
security. Communication--the listening side every bit as much as the 
talking side--is the key to understanding the complicated issues this 
nation faces.
    I have been very fortunate to have opportunities which became 
excellent learning experiences. I learned first-hand the need for our 
government to be effective and responsive to the legitimate needs of 
citizens and the business community. I learned first-hand the need for 
our government to make wise policy decisions to meet changing world 
conditions. I learned that decisions by government agencies must not be 
made in a vacuum without real-world considerations. I learned the value 
of early involvement of all stakeholders in the decision making 
process. And I have learned that our country needs and expects public 
servants who will work with integrity and in the public interest.
    During the past few weeks I have been able to meet with several 
members of this Committee and staff and hear some of your concerns and 
issues. I have also learned much about the activities of the Fossil 
Energy Program within the Department of Energy. From what I've seen so 
far, it is clear that there is critically important work being done in 
the Department by extremely talented engineers, scientists and other 
staff. The research, development, demonstration and deployment 
activities being carried out are critically important to the nation's 
energy future. And they are not, nor should they be pursued in a 
vacuum. Technology cannot be deployed unless cross-cutting issues are 
understood and also addressed.
    But of course DOE is not just research; it is charged with the 
responsibility of assuring coordinated and effective administration of 
Federal policy and programs. Critical to advancing energy policy that 
is reasonable, achievable and durable are the budget choices we make 
today regarding research, development and demonstration, because those 
decisions will significantly affect our energy choices of the future. 
Budget choices are always difficult because Federal dollars are a 
finite resource and there is certainly not unanimous agreement among 
all stakeholders about how those dollars should be spent. But decisions 
must be made and it is the responsibility of the Federal government to 
make them. If I am confirmed, you have my promise that I will work 
within the Administration, with this Committee and with the 
Appropriations Committees so that we can together make the wisest 
spending choices.
    Mr. Chairman and members of the Committee, I sat before you four 
years ago and made a promise that if confirmed as Director of the 
Office of Surface Mining I would work in a bipartisan way with both 
houses of Congress and with all stakeholders. For four years I have 
worked hard to live up to that commitment and have been rewarded with 
tremendous cooperation and great partnerships that have allowed OSM to 
be successful. Today I repeat that promise if I am confirmed as the 
Assistant Secretary of Fossil Energy.
    Thank you for the opportunity to make this statement.

    The Chairman. Thank you very much.
    Mr. Sproat.

       TESTIMONY OF EDWARD F. SPROAT III, NOMINEE TO BE 
        DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
                MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Sproat. Mr. Chairman, Senator Bingaman, and members of 
the committee, I am sincerely honored to appear before you 
today as the President's nominee to serve as Director of the 
Office of Civilian Radioactive Waste Management in the 
Department of Energy.
    I am fully aware of the challenges that face the person who 
holds this position regarding the disposition of the Nation's 
spent nuclear fuel and high-level radioactive waste, and I am 
deeply appreciative of the President's and Secretary Bodman's 
confidence in my abilities to meet those challenges.
    A little about my background. I am a registered 
professional engineer who has worked in the nuclear energy 
industry for most of my career. Early in my career, I was in 
charge of the design and licensing of the electrical systems 
for the Limerick Nuclear Power Plant. And that gave me the 
opportunity to develop the design, the licensing strategy, and 
the documents required by the Nuclear Regulatory Commission to 
gain an operating license for that nuclear plant.
    In the early 1990's, I led a major quality-focused, 
culture-change initiative across Philadelphia Electric Company 
as we prepared for deregulation. And that initiative resulted 
in significant improvements in company performance and culture. 
I also held the positions of director of engineering and 
director of maintenance at Limerick, gaining significant 
experience in nuclear operations and leading technical 
organizations to high levels of performance.
    In the late 1990's, as director of engineering for PECO 
Nuclear, I was the design authority for our fleet of nuclear 
plants and was involved in a number of interactions with the 
NRC on multidisciplinary design issues. As director of 
strategic programs, one of my responsibilities was the 
preparation of the license renewal application for our Peach 
Bottom Nuclear Plant. I was also tasked by our chief executive 
officer during that time to try and reach a settlement with the 
Department of Energy regarding the spent-fuel standard contract 
for our Peach Bottom Plant. I was the lead PECO negotiator in 
those--in that effort, and it eventually resulted in the first 
settlement between the Department of Energy and a nuclear 
utility.
    In 2000, as the vice president of Exelon Generation, I 
represented Exelon on the board of directors for the Pebble Bed 
Modular Reactor Corporation in South Africa, or PBMR. This 
company is currently developing a modular high-temperature gas 
reactor for electricity generation. And, in 2001, Exelon was 
asked by the PBMR board to allow me to become the chief 
operating officer, or COO, for 1 year. I assumed that position 
in January 2002, and held it until December of that year, when 
I retired from Exelon.
    As the COO of PBMR, I led the organization in finalizing a 
preliminary design for the standard PBMR Power Plant, along 
with completing credible cost estimates, project schedules, and 
a business case for launching the project that has been 
accepted by the South African Government. Since that time, I've 
been working with the former chief executive officer of Exelon 
to lead a consortium to design and build the next-generation 
nuclear plant.
    Senators, I strongly share the belief of President Bush and 
Secretary Bodman that nuclear energy must be a part of the 
energy mix for this country in the future. It is the only near-
term source of carbon emission-free, base-load electricity 
that's available to us. This country's ability to continue to 
use and expand the utilization of this resource in order to 
enhance our energy security is directly dependent upon 
establishing and safely operating a national spent-fuel 
repository, as has been authorized and directed by Congress. 
That is why I have expressed interest in this position, and I 
hope to have the opportunity to help the Department of Energy 
carry out that directive.
    If confirmed, I would work with my administration 
colleagues, the Congress, and other stakeholders to address the 
challenging issues that confront us with respect to spent 
nuclear fuel and high-level radioactive waste. Among them are 
the repository design and license application, a transportation 
plan, the skills and competencies of the Office of Civilian 
Radioactive Waste Management, and the accumulating potential 
government liability associated with the unmet contractual 
obligations to move spent fuel. Although these issues are 
difficult, I believe it is critically important to our Nation's 
energy security that we successfully address them.
    If confirmed, I would approach the duties of my position 
with six values that I believe must be held by any person who 
is involved with nuclear power: safety, integrity, quality, 
accountability, teamwork, and continuous improvement. If 
confirmed, I will enforce those values both within the OCRWM at 
DOE and its contractors.
    Regarding the upcoming licensing activities for this 
project, the Congress has made it very clear that the 
stakeholders are to have every opportunity to participate in a 
transparent process. The people who are going to be affected by 
this project, both within the State of Nevada and along the 
transportation routes, have every right to expect that they 
will get a chance to participate, learn, understand, and 
influence how the spent-fuel transportation and disposal system 
is going to work and impact them. My commitment to this 
committee and to those stakeholders is that, if confirmed, I 
will ensure that the OCRWM at DOE and its contractors fully 
embrace the NRC process that allows participation of the 
stakeholders and the licensing process, and will be open to 
their good-faith participation and feedback.
    I'm truly honored to have been nominated by the President 
for this position, and I also recognize that success in this 
position will only be possible by close collaboration and 
cooperation with Congress and the States. If confirmed, I 
pledge to this committee that I will keep you apprised of 
what's really going on within the Yucca Mountain project, and 
will welcome your ideas and feedback.
    Thank you for the opportunity to appear before you today, 
and I'd be pleased to answer any questions you might have.
    [The prepared statement of Mr. Sproat follows:]

  Prepared Statement of Edward F. Sproat III, Nominee to be Director, 
 Office of Civilian Radioactive Waste Management, Department of Energy

    Mr. Chairman, Senator Bingaman, and Members of the Committee, I am 
sincerely honored to appear before you today as the President's nominee 
to serve as the Director of the Office of Civilian Radioactive Waste 
Management at the Department of Energy. I am fully aware of the 
challenges that face the person who holds this position regarding the 
disposition of the Nation's spent nuclear fuel and high level 
radioactive waste, and I am deeply appreciative of the President's and 
Secretary Bodman's confidence in my abilities to meet those challenges.
    I would like to introduce my wife Heidi Sproat who likes to 
describe herself as a native Californian transplanted by marriage. She 
has been a true friend and companion in our 26 years of marriage and 
deserves my endless devotion and thanks for running our family while I 
was in South Africa. Also with us are our three children: Kristen who 
is a third class midshipman at the United States Naval Academy, Eric 
who is a junior at Conestoga High School, and Keith who is a freshman 
at Malvern Preparatory School. Heidi and I are very proud of all three 
of them.
    I am a Registered Professional Engineer who has worked in the 
nuclear energy industry for most of my career. Early in my career, I 
was in charge of the design and licensing of the electrical systems for 
the Limerick Generating Station which gave me the opportunity to 
develop the design, the licensing strategy and the documents required 
by the Nuclear Regulatory Commission (NRC) to gain an Operating License 
for that nuclear plant.
    In the early 1990's, I led a major quality-focused culture change 
initiative across Philadelphia Electric Company as we prepared for 
deregulation that resulted in significant improvements in company 
performance and culture. I also held the positions of Director of 
Engineering and Director of Maintenance at Limerick, gaining 
significant experience in nuclear operations and leading technical 
organizations to high levels of performance.
    In the late 1990's, as the Director of Engineering for PECO 
Nuclear, I was the Design Authority for our fleet of nuclear plants and 
was involved in a number of interactions with the NRC on multi-
discipline design issues. As Director of Strategic Programs, one of my 
responsibilities was managing the preparation of the license renewal 
application for our Peach Bottom nuclear plant, which was one of the 
first to receive its renewed Operating License from the NRC. I was also 
tasked by our Chief Executive Officer to try to reach a settlement with 
the Department of Energy regarding the spent fuel standard contract for 
our Peach Bottom plant. I was the lead PECO Energy negotiator in that 
effort which eventually resulted in the first settlement between the 
Department and a nuclear utility.
    In 2000, as a Vice President of Exelon Generation, I represented 
Exelon on the Board of Directors of Pebble Bed Modular Reactor Pty. 
Limited (PBMR). This company, located in the Republic of South Africa, 
is currently developing a modular high temperature gas reactor for 
electricity generation. In 2001, Exelon was asked by the Board of PBMR 
to allow me to become the Chief Operating Officer (COO) for one year. I 
assumed that position in January 2002 and held it until December of 
that year when I retired from Exelon. As COO, I led the organization in 
finalizing a preliminary design for the standard PBMR power plant along 
with completing credible cost estimates, project schedules and a 
business case for project launch that has been accepted by the South 
African government. Since that time, I have been working with the 
former Chief Executive Officer of Exelon to lead a consortium to design 
and build the Next Generation Nuclear Plant (NGNP).
    Senators, I strongly share the belief of President Bush and 
Secretary Bodman that nuclear energy must be a part of the energy mix 
for this country in the future. It is the only near-term source of 
carbon emission-free base load electricity that is available to us. 
This country's ability to continue to use and expand the utilization of 
this resource in order to enhance our energy security is directly 
dependent upon establishing and safely operating a national spent fuel 
repository as authorized and directed by Congress. That is why I have 
expressed interest in this position and I hope to have the opportunity 
to help the Department of Energy carry out that directive.
    If confirmed, I would work with my Administration colleagues, the 
Congress, and other stakeholders to address the challenging issues that 
confront us with respect to spent nuclear fuel and high level 
radioactive waste. Among them are the repository design and license 
application, the transportation plan, the skills and competencies of 
the OCRWM organization, and the accumulating potential government 
liability associated with the unmet contractual obligations to move 
spent fuel. Although these issues are difficult, I believe it is 
critically important to our Nation's energy security that we 
successfully address them.
    If confirmed, I would approach the duties of my position with six 
values that I believe must be held by any person involved with nuclear 
power: Safety, Integrity, Quality, Accountability, Teamwork, and 
Continuous Improvement. If confirmed, I will reinforce these values 
both within the OCRWM organization and its contractors.
    Regarding the upcoming licensing activities for the project, 
Congress has made it clear that the stakeholders are to have every 
opportunity to participate in a transparent process. The people who are 
going to be affected by this project both within the State of Nevada 
and along the transportation routes have every right to expect that 
they will get a chance to participate, learn, understand and influence 
how the spent fuel transportation and disposal system is going to work 
and impact them. My commitment to this Committee and to those 
stakeholders is that if confirmed, I will ensure that the OCRWM 
organization and its contractors fully embrace the NRC process that 
allows participation of the stakeholders in the licensing process and 
will be open to their good faith participation and feedback.
    I am truly honored to have been nominated by the President for this 
position. I also recognize that success in this position will only be 
possible by close collaboration and cooperation with Congress and the 
States. If confirmed, I pledge to this Committee that I will keep you 
appraised of what is going on with this project and will welcome your 
ideas and feedback.
    Thank you for the opportunity to appear before you today, and I 
would be pleased to answer any questions you may have.

    The Chairman. Thanks to both of you.
    I have a series of questions that I will submit. And we 
intend to have an executive session next week for the purpose 
of voting on reporting you out to the Senate for confirmation, 
so we would appreciate your answering the questions as quickly 
as possible. We have to have them before that time, so you 
don't have a lot of time, 3 or 4 days.
    With that, I'm not going to ask any questions. I'm just 
going to make an observation about your job, Mr. Sproat.
    First of all, seeing your background, I understand that you 
are used to challenges. And I, nonetheless, have reviewed the 
challenges, as I see the job description, and this is the 
biggest challenge, in my opinion, that you will have decided to 
undertake. It is a terribly difficult job involving many, many 
things that are going to require not only science and 
technology on your part, but also some great skills in working 
with people and working with us.
    Mr. Sproat. Yes.
    The Chairman. I am very pleased that the President 
nominated you, because I think you have as good a background 
and character as anyone we could find. Frequently, we are not 
so fortunate.
    Mr. Sproat. Thank you.
    The Chairman. And I think we're lucky that you would decide 
to do that.
    Mr. Sproat. Thank you.
    The Chairman. And I say that to your family, also. It will 
be a tough job.
    Mr. Sproat. Yes, it will.
    The Chairman. I hope you don't ignore them in the 
difficulty of this job, because it will consume you. And 
sometimes you will wonder for what, I assure you.
    [Laughter.]
    The Chairman. Mr. Jarrett, you have a great opportunity. 
We're right on the cutting edge of getting some big things done 
in this area, and we need some real work. The energy bill gives 
you some tough things to do, and the Department's committed to 
do them, so we hope you'll be a leader in that, in trying to 
see what we decided you should be doing. Some of them will 
appear onerous, and will have no effect for quite some time, 
but you have to do them anyway.
    With that, I'm going to yield to Senator Bingaman, and I 
hope you both know that when I leave here, it does not mean I 
don't have great interest. I just--I have already committed to 
start home to New Mexico, and I'm going to let Senator Burr 
take my place while Senator Bingaman and he complete the 
hearing.
    Thank you.
    Senator Bingaman.
    Senator Bingaman. Well, I thank you both very much, and I 
congratulate you both on your nominations.
    Mr. Jarrett, your position as head of--Assistant Secretary 
for Fossil Energy--the Fossil Energy Program has been an 
important source of oil and gas research and development, as 
well as other types of research and development. As I 
understand it, the request we got earlier this year from the 
administration was to zero out the funding. It was to 
essentially shut down the oil and gas research and development 
work within your office. I would hope that you would be 
supportive of continuing to do research and development work 
related to oil and gas in that Department. I don't know if 
you're in a position to give us any assurance along those lines 
now, but I think it would be important, at least to me, to know 
that that kind of activity is going to continue.
    Mr. Jarrett. Senator, I'm sure we could have a very long 
conversation about how this country needs to focus its R&D 
efforts for our energy security. You know that I was not 
involved in any of the budget discussions within DOE, although 
I think a couple of things have happened over the past year 
that are noteworthy.
    I mean, No. 1, we got a little bit of a wake-up call, or 
quite a bit of a wake-up, with a couple of devastating 
hurricanes in the gulf region that really should send a signal 
to all of us just how precarious the supply-and-demand balance 
is for energy, especially oil and gas, in this country. It's 
clear to me that one of the first challenges that I will face 
at the Department of Energy is to work through some budget 
issues, and my preference would be to try to frame the budget 
questions. I think it's important that Congress and the 
administration and other stakeholders are all on the same page, 
because the nature of the work that we do, of research and 
development work, is long term. And to be successful and 
efficient, we're going to need private-sector partners. And 
it's my belief that there is some hesitation on the private 
sector to be effective partners, because, before they can make 
a financial investment as a partner to us, they need to know 
that the decisions we make are long-term commitments, that 
they're going to be durable, and that we're not going to change 
them from year to year.
    So, I think there's--you know, the first challenge is going 
to be, I think, to frame how we make budget decisions. I don't 
think, on an annual basis, we should be debating what we're 
going to do research and development work on. That should be 
agreed up front for the long term, and then, on an annual 
basis, we can spend time talking about what the budget ought to 
be so that we can meet whatever the annual milestones are in 
that particular area. And I think there are a lot of 
considerations that need to go into that.
    I've heard a lot of people opining about the oil and gas 
industry, for example, with posted record profits today. But I 
don't think we can make budget decisions based on those sort of 
broad-brush thoughts. The reality is, if you look at the oil 
and gas industry, it's not the super-majors who are getting the 
job done for us, it's the independents. And that represents 
somewhere in the neighborhood of 75 to 80 percent of our 
domestic production. And I'm not at all certain that those 
independents, individually, have the kind of resources that are 
needed to do the appropriate R&D that we need in this country, 
especially when you consider that we do have vast reserves, but 
a lot of it is unconventional oil and gas reserves, and it's 
going to take some technology to figure out how to get it.
    Senator Bingaman. Well, thank you for that response, and I 
do look forward to working with you and trying to see if we can 
maintain some level of Federal support for these oil-and-gas 
research-and-development activities out of the office that 
you're taking over.
    Mr. Sproat, let me ask you just one question, also. You 
concentrated your comments, or much of your comments, on a 
major part of what your job is, and that is trying to help with 
the disposal of this spent nuclear fuel in Yucca Mountain. I 
notice that the Department is now being asked--this is in the 
latest appropriation bill--to begin a new program to reprocess 
spent fuel.
    Mr. Sproat. Yes.
    Senator Bingaman. I just wondered how you see the 
relationship between those two programs. I mean, are we going 
to bury it, or are we going to reprocess it? Or what are we 
going to do? Are we going to do both?
    Mr. Sproat. Well, in terms of the policy issues associated 
with reprocessing, that clearly is outside the responsibility 
of the Office of Civilian Radioactive Waste Management. 
However, if the country decides to go and close the fuel cycle, 
go to fuel reprocessing, like our original intent was back in 
the 1960's and early 1970's, the impact would be a significant 
reduction in the amount of high-level radioactive waste that 
would have to be disposed of in a deep geological repository.
    The numbers I've seen, based on some work done by one of 
the national labs, indicates that if we were to go with a full 
nuclear-fuel recycle program, including fast breeder reactors, 
that the volume of high-level radioactive waste that would have 
to be disposed of in a deep geological repository would be 
reduced by a factor of a hundred. And that also--a byproduct of 
that would also be that our uranium natural resources as--for 
using uranium as a natural resource for nuclear energy in this 
country, that would be expanded by about a factor of a hundred.
    So, if you take a long-term energy perspective on this 
question, I, personally, believe it makes a lot of sense that 
we, as a Nation, move toward closing the fuel cycle and moving 
eventually to a fast-breeder technology that allows us to 
maximize the availability of the uranium resources, minimize 
the amount of spent nuclear fuel and high-level radioactive 
waste.
    However, having said that, no matter which way we go, 
either the once-through fuel-cycle path that we're currently on 
or a full recycle path, which I believe eventually we should be 
planning to move toward, in either case you will still need at 
least one high-level-waste deep geological repository for the 
waste to be placed in.
    Senator Bingaman. Thank you very much.
    I'll stop with that, Mr. Chairman.
    Senator Burr [presiding]. Thank you, Senator Bingaman.
    Let me also welcome both of you, and as the chairman did, 
thank you for your commitment to serve. If we didn't have 
qualified individuals, we wouldn't have the opportunity to move 
forward in the ways that I think we're challenged to these 
days.
    Let me, if I could, take this opportunity, Mr. Jarrett, to 
ask you one question. The energy bill created a new statutory 
program entitled Clean Coal Power Initiative that authorizes 
$1.6 billion in funds over 8 years. Seventy percent of that is 
designated specifically for gasification projects, and 30 
percent for conventional coal-powered generation projects. This 
provision is not intended, however, to duplicate or to 
interfere with the Department's existing Clean Coal Power 
Initiative. Can you share with the committee your thoughts on 
how and when this new program should be implemented, and how it 
should be coordinated with the existing program?
    Mr. Jarrett. Senator, I would, if confirmed, be happy to 
meet with you to get some of your ideas on that, but I have, at 
this point, not had an opportunity to evaluate how those two 
programs should be integrated.
    Senator Burr. I would appreciate it if, once you have an 
opportunity to look through that, you would share it with me, 
and hopefully with the entire committee.
    Mr. Sproat, included in the 2006 Energy and Water 
Conference Report is specific language requiring the Department 
of Energy to start a nuclear fuel recycling program and to set 
up a competition to determine if any communities or States will 
volunteer to host a recycling or reprocessing facility. The 
bill provides $50 million for the program, of which $20 million 
would be given to four individual sites, at $5 million each, to 
demonstrate that they can get through the regulatory, legal, 
legislative hurdles to host reprocessing. If confirmed, do you 
promise to fulfill this obligation in the coming fiscal year?
    Mr. Sproat. Senator, I believe that that responsibility 
would probably not fall under the auspices of the Office of 
Civilian Radioactive Waste Management. I believe--I'm not 
absolutely sure of this, and I can check for you afterwards, 
but I believe that the responsibility would fall under the 
Nuclear Energy Organization within the Department of Energy.
    Senator Burr. Let me ask you to comment on the initiative 
that Congress has put. If it were under your jurisdiction, is 
it something that you would support?
    Mr. Sproat. In terms of trying to assist communities to 
understand and assess the potential impacts of recycling 
facilities in their area, I believe it's very appropriate.
    Senator Burr. If confirmed, what are your plans, as it 
relates to the implementation of the transportation 
infrastructure system, so that DOE meets its deadlines?
    Mr. Sproat. I think--as you know, Senator, I'm coming into 
this project from the outside, so what I know about the project 
is what I have read in publicly available documents. And there 
are a number of areas in this program where I clearly need a 
lot more information to lay out my gameplan of how to move 
forward with the program, transportation being one of the key 
ones.
    My first activities, if confirmed, are, we're going to do a 
very broad and deep assessment of both the program, the 
organization, and the license application--and transportation, 
by my definition, falls under the programmatic assessment--to 
find out where it really stands, what the gaps are between 
what's going to be needed for that transportation system to be 
fully functional in a reasonable period of time, and lay out a 
very specific game plan with goals and deadlines to go make 
that happen.
    And that's what I commit to you at this stage of the game, 
is to do that assessment so I fully understand what the 
shortcomings are today, what the situation is today, and then 
move forward with fixing those problems that we find in that 
assessment.
    Senator Burr. Given your background, I think you have an 
understanding of where companies that are affected in the 
nuclear issue are, their concerns that exist right now, as they 
relate to the multipurpose canisters.
    Mr. Sproat. Yes.
    Senator Burr. How would you envision approaching engaging 
the private sector on overcoming those concerns and those 
challenges?
    Mr. Sproat. I would say that, first of all, having not been 
involved on the DOE side of the program, as of yet, I don't 
understand what exactly the Department's position is regarding 
those canisters, nor what the concerns are about them. Now, 
having said that, though, from just a nuclear-waste 
transportation and disposal system standpoint--I believe in 
systems engineering, and this is truly a very complex system--
it makes a lot of sense to simplify the transportation aspect 
of this on the front end as simple as possible and minimize the 
amount of handling of fuel as much as we can. So, if we can 
design the system to accommodate those multipurpose canisters, 
we should be doing that.
    Senator Burr. Do you see your job, if confirmed, to try to 
share with the Department where you think they may be misguided 
on their policies?
    Mr. Sproat. I would certainly see my role, if confirmed as 
Director of OCRWM, as an advocate for the policies that I 
believe are needed to expedite the resolution of the high-
level-waste, spent-nuclear fuel problem. I certainly see myself 
as working with my team, with the Congress, with the 
stakeholders to try to really understand what we think the 
best, most productive policy should be to resolve these issues, 
and then be a strong advocate for those polices to the 
administration.
    Senator Burr. I appreciate that very candid answer. And I'm 
sorry to ask it in the way that I did, because it might suggest 
that the administration does not always make the wisest policy 
decision, and I'm not necessarily implying that. But I think 
that it's absolutely vital, when we get talented people, that 
we allow those talents to be used, not just in the execution of 
a policy, but in the thought of what that policy should be. I 
think I can speak for many in this Congress that we believe we 
need to move forward with nuclear generation in this country. 
We believe we need to move quickly. And I think that's 
reflective in the energy bill. However, until we resolve the 
spent-fuel issue, it is very difficult to suggest to the 
industry that the future is predictable enough for any 
individual company, or the groupings of companies, to make $3 
billion commitments on behalf of their shareholders or their 
capital commitments.
    I believe that this is absolutely an essential piece for us 
to sort out, and I think that it will be this Department of 
Energy, during your time there, that makes decisions as it 
relates to that one issue that will determine what the future 
will look like. So, I would strongly encourage you to be a good 
soldier of the administration and to convey your experiences 
and your talents as aggressively as you're permitted to do.
    Mr. Sproat. Well, Senator, I fully agree, and we are 100 
percent aligned with your judgments regarding the necessity of 
the resolution of this issue, of spent nuclear fuel and its 
importance to the future of nuclear energy in this country, and 
that's exactly the reason why I asked to be considered for this 
position.
    Senator Burr. Once again, I would tell you, on behalf of 
the Congress, we thank both of you very talented individuals 
for your willingness to commit to public service and to bring 
the expertise that both of you do.
    At this time, I notice no other members. I ask that any 
additional questions be filed with the committee staff by the 
close of business today.
    Thank you for enlightening us on your thoughts, your 
backgrounds. I know that it's the chairman's intention to move 
very quickly, and we certainly have enjoyed the opportunity to 
have your families with us today.
    This hearing is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of Jeffery Jarrett to Questions From Senator Domenici

    Question 1. Mr. Jarrett, we recently passed an energy bill that has 
a number of provisions that will need to be implemented by DOE's Fossil 
Energy division that you will manage if you are confirmed.
    Could you please identify two of these initiatives that you feel 
should be the top agency priorities for the Fossil Energy division with 
respect to implementation of the Energy Bill?
    Answer. It is my understanding that the Office of Fossil Energy has 
nearly 100 actionable items included in the Energy Policy Act of 2005 
related to coal, oil, natural gas, the strategic petroleum reserves and 
loan guarantees. These cover a broad range of topics from research, 
regulatory issues, and specific analyses and studies. Since there are 
so many items all important in their own right, it is impossible at 
this time to just pick two items of greatest importance. If confirmed, 
I will review all of these items and assure that they are completed in 
a timely manner.
    Question 2. Some have suggested that we should create a strategic 
natural gas reserve and other product reserves similar to the Strategic 
Petroleum Reserve.
    Please comment on the pros and cons of this idea and give us your 
opinion on whether this would be a wise thing to do.
    Answer. If I am confirmed, I will look closely at this suggestion, 
including both the technical challenges and the impact on the market. 
Without, a detailed understanding of this issue, it is not possible to 
adequately respond to your question except to state that I am aware 
that this is an issue the Administration has been reviewing.
    Question 3. I think the Administration is to be commended for the 
release of crude from the Strategic Petroleum Reserve in the aftermath 
of the hurricanes. It certainly seemed to relieve pressures and get 
product to the market. Some argue that this resource should be used 
more frequently, not only to make up for temporary shortfalls in 
supply, but to moderate prices as well.
    Please share with us your views on the appropriate use of the 
Strategic Petroleum Reserve.
    Answer. I believe the recent use of the Strategic Petroleum Reserve 
after Hurricanes Katrina and Rita is the type of situation for which it 
was created, and that it should not be used as a tool to supplant free 
markets in determining oil prices.
    The recent exchanges and sale from the Strategic Petroleum Reserve 
were proper policy. There were several considerations that support the 
decision to use the Strategic Petroleum Reserve, all of which are 
grounded in the principles stated in the Energy Policy and Conservation 
Act. In this instance we suffered a shortage of petroleum products 
caused by an unexpected event, Hurricane Katrina, that disrupted 
supplies. The devastation in the Gulf of Mexico was so complete that 
the disruption was expected to last for a prolonged period, and could 
have caused harm to our economy. In addition, the scope of the 
disruption brought the issue to the attention of the International 
Energy Agency. That body deemed the disruption so serious that a 
resolution was passed to respond with a coordinated drawdown by all 
member countries, which created an obligation for the United States.
    Question 4. When the SPR fill is completed, the DOE will have the 
opportunity to select a site to hold additional crude oil. In the 
Energy Bill we provided a process for the Department to select sites to 
meet this new capacity requirement, but we also left the Secretary with 
certain amount of discretion in selecting the sites. This has the 
potential of producing jobs and construction dollars to areas selected. 
Presumably, the Secretary will be seeking your counsel on this issue.
    Could you please share with us your thoughts about how this 
selection process might work and what factors will affect this 
decision?
    Answer. Under the National Environmental Policy Act (NEPA), an 
expansion of the SPR would be a major Federal action, requiring the 
preparation of an Environmental Impact Statement. The NEPA process 
assures the assessment of the potential environmental consequences of a 
proposed action (and the candidate sites) before making a decision on a 
proposed action.
    In addition to the environmental impacts, the Department will 
consider three other major factors in the site selection process--how 
the site enhances the Reserve's distribution plan (i.e. mission value), 
the development risks and the project costs.
    If confirmed, I look forward to working with the Committee as the 
Department moved forward in the site selection process.
    Question 5 The Secretary has initiated an aggressive campaign to 
encourage conservation of energy resources in the wake of hurricanes 
Katrina and Rita.
    Do you have any other ideas about steps the Department, and 
particularly the Fossil Energy division, could take to help consumers 
deal with the higher prices at the pump and in heating their homes this 
winter?
    Answer. Conservation is the best short term opportunity to reduce 
demand and therefore energy prices. To this end DOE has undertaken an 
aggressive campaign to educate the public and industrial sectors on 
energy saving conservation methods. On the supply side, getting natural 
gas facilities in the Gulf of Mexico region that were damaged by 
hurricanes Katrina and Rita back on-line as quickly as possible is the 
best short term way to increase the delivery of natural gas to 
consumers and to moderate the high prices we are seeing today. The 
Department is working with industry and other Federal agencies to 
facilitate this recovery.
    New supply options take time, typically 2 to 10 years depending on 
the resource and location. However, it is also important that we 
continue to focus on supply to meet demand in the mid to long term.
    Question 6. A significant amount of interest has arisen over the 
past couple of years in using coal as a feedstock to produce liquid 
fuels, especially clean diesel fuel.
    What is your view of expanding the use of coal for this purpose, 
and do you think the Department of Energy should be creating more 
opportunities to assist industry in promoting technologies to 
accomplish this?
    Answer. With respect to producing liquid fuels from coal, my 
understanding is that we have the technology to do that. The current 
technology can produce liquid fuels from coal at around 35 dollars per 
equivalent barrel of oil. The challenge that industry faces in 
investing in the technology has more to do with the uncertainties of 
the market place due to the volatility of oil prices, notwithstanding 
the current prices we're seeing now. Given that the investment required 
is on the order of several billion dollars, it is a difficult challenge 
for industry to make the investment and secure the financing for such a 
long term project in light of the uncertainties in future oil prices. I 
am supportive of assisting industry in developing a domestic coal 
liquids industry.
    Question 7. The Energy Bill also created a new statutory program 
entitled ``Clean Coal Power Initiative'' that authorizes $1.6 billion 
in funds over eight years--70 percent for gasification projects and 30 
percent for conventional coal power generation projects. This provision 
is not intended to duplicate or interfere with the Department's 
existing ``Clean Coal Power Initiative.''
    Can you please tell the Committee your thoughts on how and when 
this new program should be implemented and how it should be coordinated 
with the existing program?
    Answer. If confirmed, I will review both the current program and 
the provisions of the Energy Bill. Given the intent that the provisions 
not duplicate or interfere, it would seem to make sense to coordinate 
and integrate the objectives, strategies and implementation of the two 
CCPI programs to achieve the overall goals of the clean coal program 
and to demonstrate the readiness of the latest advances in clean coal 
technologies for entering the commercial realm.

    Responses of Jeffrey Jarrett to Questions From Senator Bingaman

    Question 1. Climate change is a serious problem. We know that 
emissions from fossil fuels are contributing to it and will continue to 
contribute even more in future years. Do you consider climate change to 
be problem that we need to address?
    Answer. It would be prudent for the Nation to develop technology 
options to use energy more efficiently and with reduced or no 
CO<INF>2</INF> emissions. The President has established a robust and 
flexible climate change policy that harnesses the power of markets and 
technological innovation, maintains economic growth, and encourages 
global participation. Major elements of this approach include 
implementing near-term policies and measures to slow the growth in 
greenhouse gas emissions, advancing climate change science, 
accelerating technology development, and promoting international 
collaboration. In the case of coal technology, CO<INF>2</INF> capture 
and storage technology is especially important to develop. If 
confirmed, I look forward to working on this issue with you and the 
Committee.
    Question 2. What role do you believe that advanced coal 
technologies should play? In particular, the role of carbon capture and 
storage as a key technology for the future of coal.
    Answer. Advanced technologies will play a crucial role in 
addressing carbon emissions reductions of coal-based energy production. 
More efficient advanced technologies will help to reduce the amount of 
greenhouse gases emitted into the atmosphere, whether from electricity 
generation and end use, from transportation, or from heavy industry. 
However, given the rise in human population and the economic growth 
expected in many nations, coal use is expected to increase dramatically 
worldwide. Carbon capture and storage can therefore play a critical 
role in the future of coal, and that is why the Department is committed 
to developing advanced carbon capture and storage technologies.
    Question 3. How do you plan to encourage its deployment on a scale 
and timeline that will allow coal to contribute to the solution as 
opposed to the problem?
    Answer. Development of advanced technologies is the key to 
deployment of carbon capture and storage on a scale and timeline that 
will allow coal to contribute to the solution. In order for carbon 
sequestration to be deployed, it must first be proven technically 
achievable and economically feasible. The Office of Clean Coal's 
ongoing FutureGen project, sequestration research and development, and 
regional carbon sequestration partnerships are working towards making 
this a reality. I plan to encourage deployment of sequestration 
technologies by working to make the required technologies available as 
soon as it would be economically practical to do so.

     Responses of Jeffrey Jarrett to Questions From Senator Bunning

    Question 1. The DOE clean coal programs are essential to 
maintaining the viability of coal as a future energy source. How do you 
plan to ensure that the Fossil Energy Office stays on target in 
completing timely clean coal research?
    Answer. My understanding is that the Office of Clean Coal has a 
very thorough roadmap for technology development. It is also my 
understanding that this roadmap has been in existence for many years, 
and is aligned with other roadmaps for coal technology development from 
the U.S. coal industry and from the international coal community. If 
confirmed, I would work to ensure that the Office of Clean Coal 
continues to base programmatic decisions on how to best achieve the 
goals stated in its technology roadmaps.
    Question 2. The President has committed to making FutureGen a 
reality. The FutureGen program is supposed to cost $1 billion, with 
funding coming from both the private sector and the DOE. Congress has 
appropriated only $36 million through Fiscal Year 2005 for FutureGen. 
Will you work to make sure that the Administration will request enough 
funding so that this program begins in a timely manner? Will you ensure 
also that the DOE will not take funding from other coal programs for 
FutureGen so that the viability of FutureGen does not come at the 
expense of other coal programs?
    Answer. The investment that we as a Nation have made in clean coal 
technology has now positioned us to be able to technically reach for 
zero emission coal technology, which, as I understand it, is the focus 
of the FutureGen project and the overall R&D program. While I am aware 
that the FutureGen program is a priority for the Department, I have not 
been a party to DOE's budgetary discussions, and I am not in a position 
to comment on potential funding requests. I appreciate your interest in 
the program and if confirmed, I will be happy to discuss this important 
issue with you and the Committee.
    Question 3. The President has pledged to support the Clean Coal 
Power Initiative, which is a $2 billion program over 10 years. Over the 
past couple of fiscal years, the President's budget only asked for $50 
million, which is what Congress appropriated. Are you willing to work 
to ensure that the Clean Coal Power Initiative is fully funded to meet 
the President's commitment and to meet the next 2007 timeframe for a 
new solicitation?
    Answer. The Clean Coal Power Initiative (CCPI) is an integral part 
of our clean coal research program and strategy. We will continue to 
work towards a meaningful and sensible program in CCPI within the 
budget constraints and competing priorities that will allow us to 
proceed with the next round of solicitations at the earliest feasible 
date to demonstrate the readiness of those advanced technologies for 
commercial demonstration.

      Response of Jeffrey Jarrett to Question From Senator Salazar

    Question 1. I am very interested in pursuing coal gasification and 
sequestering the resulting carbon dioxide. Can you comment on the 
research into carbon sequestration and its potential? I know you have 
had a distinguished career working with coal, and I would appreciate 
your insight.
    Answer. The potential benefits of gasification based systems 
coupled with low-cost CO<INF>2</INF> capture and storage are great and 
offer the potential of being essentially zero emission systems. 
Realistically, fossil fuels will continue to supply a large percentage 
of our energy needs worldwide into the foreseeable future. Therefore, 
deployable carbon sequestration technologies will be required to 
mitigate climate change concerns as we move forward. Developing these 
advanced carbon sequestration technologies is the key to deploying 
carbon sequestration and realizing the benefits.

                                 ______
                                 
  Responses of Edward F. Sproat III to Questions From Senator Domenici

    Question 1. This Office of Civilian Radioactive Waste Management 
(OCRWM) needs what I will call a business plan. A business plan 
outlines where you are, your goals, expectations, and so on. This 
committee needs to know what goals the Yucca Mountain program has--what 
you are going to do, how you are going to do it, what your plans are if 
you don't meet your own deadlines. I realize that you are not yet 
working in this office, but you have been associated with its 
activities over many years from your work in the private sector.
    What is your vision for getting this program on track and keeping 
it there, and how do you think your views differ from the current 
management of the OCRWM?
    Answer. If confirmed, I intend to conduct a thorough review of the 
current program to ensure that the plans, processes and resources are 
in place to ensure that the repository can be developed successfully. 
The results of that review will be used to generate plans that will 
have specific, measurable goals and objectives for all parts of the 
OCRWM organization, including contractors. At this time, I have had 
only limited discussion with the current OCRWM management, and I am not 
in a position to express an opinion on their views, however, I look 
forward to working with them and forging a successful team.
    Question 2a. The Department signed contracts with the nation's 
utilities to begin acceptance of their spent fuel in 1998. It's now 
2005 and it appears that the Department will not begin taking waste 
from the utilities until perhaps 2015.
    How do you propose to aggressively move forward on the Yucca 
Mountain project so that the government can meet its contractual 
obligation?
    Answer. It is my intention to aggressively pursue the submittal of 
the license application for Yucca Mountain, prepare the transportation 
system for readiness, and ensure that the OCRWM organization has the 
skills, competencies and culture needed to successfully license, 
construct and operate the repository.
    Question 2b. Do you have any other ideas about how the government 
might meet its obligation if Yucca Mountain continues to be delayed?
    Answer. It is my understanding that settlement negotiations are 
underway with several utilities. If it is possible to reach settlements 
with those and other utilities, those settlements should help establish 
and stabilize the government's financial responsibility relating to the 
standard contracts while the program works to begin waste acceptance at 
Yucca Mountain.
    Question 2c. Do you think we should be looking for alternatives?
    Answer. Under the current law, Yucca Mountain is the course that 
Congress has prescribed for the program. As is the stated position of 
the Administration, I am fully committed to the development of a 
geologic repository at Yucca Mountain.
    Question 3. In recent memory, the Department was going to submit a 
license application to the NRC in December 2003, and then it slipped to 
2004, and now I don't know if anyone knows the date for the license 
application for Yucca Mountain. There is a perception that the program 
has been ``treading water'' over the last several years. The dates 
reported for license application submittal from the DOE to the NRC 
seemed to change weekly in press stories this past summer. As you know, 
the License Support Network must be submitted to the NRC and docketed 
six months in advance of a license application.
    Will you make a commitment to me and this committee that you will 
report back to us one month from today on the status of the submittal 
of the License Support Network (LSN) to the NRC?
    Answer. Yes. If confirmed, I will report back to the committee 
within one month on the status of the submittal of the License Support 
Network (LSN) to the NRC.
    Question 4. Earlier this week, the energy and water conferees 
approved a spending bill that allocates $50 million for the department 
to begin the development of an Integrated Spent Fuel Recycling Plan. 
There is no secret that I am a fan of reprocessing.
    While there are future reprocessing technologies that could 
potentially expand the capacity of Yucca Mountain to dispose of 
radioactive materials, is there any technology that you are aware of 
that would eliminate the need for a geological repository at Yucca 
Mountain?
    Answer. No. While there are a number of promising technologies that 
could minimize the amount of waste requiring disposal in a geologic 
repository such as Yucca Mountain, I am not aware of any technology 
that would eliminate the need for Yucca Mountain.

  Responses of Edward F. Sproat III to Questions From Senator Bunning

    Question 1. There has been talk that the Federal government needs 
to take possession of spent fuel rods and store them at DOE facilities, 
such as the Paducah plant, instead of at Yucca Mountain. What are your 
thoughts on this?
    Answer. It is my understanding that DOE is not currently authorized 
to provide interim storage of spent nuclear fuel at DOE sites except 
under very limited restrictions and for a very limited amount of fuel. 
Large scale interim storage of spent nuclear fuel at DOE sites would 
require additional legislation. While I understand there may have been 
discussions by some Members of Congress to take possession of spent 
fuel rods for storage at existing DOE facilities, the OCRWM is 
currently working on a permanent repository at Yucca Mountain pursuant 
to the Nuclear Waste Policy Act.
    Question 2. What are your plans to ensure that Yucca Mountain opens 
up for waste storage?
    Answer. If confirmed, I intend to conduct a thorough review of the 
current program to ensure that the plans, processes and resources are 
in place to ensure that the repository can be developed successfully. 
After I have completed that review, I will be in a better position to 
discuss those plans with you and the Committee.
    Question 3. Yucca Mountain has received limited appropriation 
funding over the past few fiscal years and a significant reduction is 
being considered for FY 2006. In your opinion, how does limited funding 
affect the Yucca Mountain project?
    Answer. At this time, I can not speak specifically as to how the 
limited appropriations over the last few years have affected the Yucca 
Mountain project. I can say, based upon my years of experience in the 
nuclear industry, that a steady, secure source of funding is crucial to 
the successful completion of any complex, long-term project. In this 
regard, I am sure that the Yucca Mountain project is no different, and 
that the program's future success will depend upon a reliable, stable 
source of adequate funding.

   Response of Edward F. Sproat III to Question From Senator Salazar

    Question 1. My understanding is that Yucca Mountain, even if 
implemented, is not a long term solution. How much nuclear waste is 
Yucca Mountain supposed to hold, and how much is awaiting transport 
across the country right now? Is there a long term solution?
    Answer. The capacity of Yucca Mountain is limited by law to 70,000 
metric tons of uranium, although I understand that the mountain has the 
capability of holding significantly more waste. I believe that there 
are currently over 52,000 metric tons of spent fuel stored at 
commercial reactor sites around the country, as well as over 10,000 
metric tons of spent fuel and high-level waste stored at DOE sites 
which is also destined for disposal in a geologic repository.
    I believe it is important for the Nation to address this situation 
and for a long-term solution to be provided. Over the long-term, and if 
nuclear power is to remain a viable source of electric energy, it seems 
that the Nation will need to expand the capacity of Yucca Mountain, 
develop an additional repository, pursue methods of closing the nuclear 
fuel cycle (such as through reprocessing), or pursue a combination of 
these three actions. I do however believe that Yucca Mountain is a 
critical part of the long term solution to our nuclear waste situation.


</pre></body></html>
